seem  (COQCKLE

; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 21-376, 21-377

CHEROKEE NATION; ONEIDA NATION;
QUINAULT INDIAN NATION;
MORONGO BAND OF MISSION INDIANS,

Petitioners,
v.
CHAD EVERET BRACKEEN, et al.,
Respondents.

DEB HAALAND, Secretary of the Interior, et al.,
Petitioners,
v.
CHAD EVERET BRACKEEN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF 180 INDIAN
TRIBES AND 35 TRIBAL ORGANIZATIONS AS AMICI CURIAE IN SUPPORT OF
CHEROKEE NATION, ET AL. in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5993 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of October, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

‘ GENERAL NOTARY-State of Nebraska Konse. K Chi,
RENEE J. GOSS 9 6
My Comm. Exp. September 5, 2023 -
Notary Public

Affiant 41401
